to time, we may offer you benefits and services
with your Account. These benefits and services
may be provided by us or third parties. Unless
expressly made a part of this Agreement, and
except as provided in the Arbitration of Disputes
section below, any such benefits and services
are not a part of this Agreement, and are subject only to the terms and conditions outlined in
the benefits or services brochure and other official documents provided to you with respect to
the benefits and services. We may adjust, add,
or delete benefits or services at any time in accordance with the brochures or documents you
receive. Except as required by applicable law, we
are not liable for benefits or services provided by
third parties or the actions or omissions of those
third parties.
Foreign Currency Conversion. Payment must
be made in U.S. Dollars for charges you incur in
any other currency. If you effect a transaction with
your Card in a currency other than U.S. Dollars,
Mastercard International Incorporated (“Mastercard”) will convert the charge into a U.S. Dollar
amount. Mastercard will act in accordance with
its operating regulations or conversion procedures in effect at the time that the transaction is
processed. Currently, the currency conversion
rate used by Mastercard to determine the transaction amount in U.S. Dollars for such transactions is generally either a government mandated
rate or a wholesale rate determined by Mastercard for the processing cycle in which the transaction is processed. The currency conversion
rate used by Mastercard on the processing date
may differ from the rate that would have been
used on the Purchase date or monthly Statement posting date. We will also assess a Foreign
Currency Conversion Fee interest charge as described in the “How Interest Charges are Determined” section.
Honoring Your Card. We are not responsible if
anyone refuses to accept your Card or Account
for any reason. Although you may have credit
available, we may decline any transaction for any
reason. We are not liable for any refusal to honor
your Card or Account.
From time to time, due to circumstances beyond
our control (such as system failures, natural disasters, or other unpredictable events), our services may not be available. When this happens,
you may be unable to use your Card or obtain
information about your Account. We will not be
responsible or liable if this happens.
Change of Address, Employment and Telephone. We will send all written notices and
Statements to your address as it appears on our
records. To avoid delays and missed payments
that could affect your credit standing, you agree
to promptly advise us if you change your mailing address, place of employment, or telephone
number.
Severability. In the event that any provision of
this Agreement is determined to be invalid or unenforceable for any reason, the remaining provisions will remain in effect.
Entire Agreement; Interpretation. This Agreement (including other documents incorporated
herein by reference) constitutes the final expression of the credit agreement between you and us
relating to your Account. The headings used in

this Agreement are for the convenience of reference only and are not intended to define or describe the scope or intent of any portion of the
Agreement.
Governing Law. Except as expressly set forth in
the Arbitration of Disputes section, this Agreement
and the interpretation and enforcement thereof
(including but not limited to the exportation of interest rates) will be governed by Federal law that
applies to us, and to the extent not preempted by
Federal law, the laws of the State of Utah, without
regard to its conflicts of law provisions and principles. If there is any conflict between any of the
terms and conditions of this Agreement and applicable Federal or State law, this Agreement will
be considered changed to the extent necessary
to comply with the applicable law.
Arbitration of Disputes Provision. PLEASE
READ THIS ARBITRATION OF DISPUTES PROVISION CAREFULLY. UNLESS YOU SEND US THE
REJECTION NOTICE DESCRIBED BELOW, THIS
PROVISION WILL APPLY TO YOUR ACCOUNT,
AND MOST DISPUTES BETWEEN YOU, ON THE
ONE HAND, AND US OR ANY SERVICER OF
YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO, GENESIS FS CARD SERVICES, INC.
(“GENESIS”), ON THE OTHER HAND, WILL BE
SUBJECT TO INDIVIDUAL ARBITRATION. THIS
MEANS THAT: (1) NEITHER A COURT NOR A
JURY WILL RESOLVE ANY SUCH DISPUTE; (2)
YOU WILL NOT BE ABLE TO PARTICIPATE IN
A CLASS ACTION OR SIMILAR PROCEEDING;
(3) LESS INFORMATION WILL BE AVAILABLE;
AND (4) APPEAL RIGHTS WILL BE LIMITED.
THIS ARBITRATION OF DISPUTES PROVISION
DOES NOT APPLY TO YOU IF, AS OF THE DATE
OF THIS AGREEMENT, YOU ARE A MEMBER
OF THE ARMED FORCES OR A DEPENDENT
OF SUCH MEMBER ENTITLED TO PROTECTION UNDER THE FEDERAL MILITARY LENDING ACT. PLEASE SEE THE SECTION OF THIS
AGREEMENT LABELED “MILITARY LENDING
ACT.” IF YOU WOULD LIKE MORE INFORMATION ABOUT WHETHER YOU ARE ENTITLED
TO PROTECTION UNDER THE FEDERAL MILITARY LENDING ACT, YOU MAY CONTACT US AT
1-800-583-5698.
This provision replaces any existing arbitration
provision with us and will stay in force no matter what happens to your Account, including the
closing of your Account. Except as expressly provided below, you must arbitrate individually, by
binding arbitration under the Federal Arbitration
Act (“FAA”), any dispute or claim between you,
any joint Cardholder and/or Authorized User, on
the one hand, and us , our affiliates, and agents,
and/or any servicer of your Account, including,
but not limited to, Genesis, on the other hand, if
the dispute or claim arises out of or is related to
(a) this Agreement (including without limitation,
any dispute over the validity of this Agreement to
arbitrate disputes or of this entire Agreement), or
(b) your Account, or (c) any relationship resulting
from this Agreement, or (d) any insurance or other
service related to your Account, or (e) any other
agreement related to your Account (including prior agreements) or any such service, or (f) breach
of this Agreement or any other such agreement,
whether based on statute, contract, tort or any
other legal theory (any “Claim”). However, we will
not require you to arbitrate any individual Claims
6

in small claims court or your state’s equivalent
court, so long as it remains an individual case in
that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS,
REPRESENTATIVE OR PRIVATE ATTORNEY
GENERAL ACTION AGAINST US OR ANY SERVICER OF YOUR ACCOUNT, INCLUDING, BUT
NOT LIMITED TO, GENESIS, IN COURT OR
ARBITRATION. ALSO, YOU MAY NOT BRING
CLAIMS AGAINST US OR ANY SERVICER OF
YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO GENESIS, ON BEHALF OF ANY CARDHOLDER WHO IS NOT A JOINT CARDHOLDER
WITH YOU OR AN AUTHORIZED USER ON YOUR
ACCOUNT (AN “UNRELATED CARDHOLDER”),
AND YOU AGREE THAT NO UNRELATED CARDHOLDER MAY BRING ANY CLAIMS AGAINST
US OR ANY SERVICER OF YOUR ACCOUNT, INCLUDING, BUT NOT LIMITED TO, GENESIS, ON
YOUR BEHALF. CLAIMS BY YOU AND AN UNRELATED CARDHOLDER MAY NOT BE JOINED
IN A SINGLE ARBITRATION. THE ARBITRATOR
WILL NOT HAVE THE POWER TO CONSIDER
SUCH CLASS, REPRESENTATIVE OR PRIVATE
ATTORNEY GENERAL ACTIONS OR ANY SUCH
CLAIMS YOU BRING ON BEHALF OF AN UNRELATED CARDHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any dispute
regarding whether a particular controversy is
subject to arbitration, or the applicability or enforceability of the foregoing paragraph, will be
decided by a court and not by an arbitrator.
If you or we or any servicer of your Account, including, but not limited to, Genesis, elect to arbitrate a claim, the electing party must notify the
other party in writing. The notice can be given after the beginning of a lawsuit and can be given in
papers filed in the lawsuit. Otherwise, your notice
must be sent to Genesis FS Card Services, Inc.,
Attn: Arbitration Demand, P.O. Box 4477, Beaverton, Oregon 97076, and our notice must be sent
to the most recent address for you in our files.
The arbitration will be administered by the American Arbitration Association (the “AAA”) under its
rules in effect at the time an arbitration is commenced that are applicable to the resolution of
consumer disputes (the “Arbitration Rules”). We
will tell you how to contact the AAA and how to
get a copy of the Arbitration Rules without cost
if you ask us in writing to do so. The Arbitration
Rules permit you to request deferral or reduction
of the administrative fees of arbitration if paying
them would cause you a hardship. In addition, if
you ask us in writing, we will consider your request to pay any or all of your costs of arbitration.
Each arbitrator shall be a licensed attorney who
has been engaged in the private practice of law
continuously during the ten years immediately preceding the arbitration or a retired judge of
a court of general or appellate jurisdiction. The
arbitration award shall award only such relief as
a court of competent jurisdiction could properly
award under applicable law, including attorneys’
fees if allowed by applicable law or agreement.
All statutes of limitation, defenses, and attorney-client and other privileges that would apply
in a court proceeding will apply in the arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be unenforce-

able, the remainder of this Section shall be given
full force and effect. However, if the provision
precluding class, representative or private attorney general Claims in arbitration is deemed unenforceable, then this entire Arbitration Agreement
shall be void and of no force and effect.
You may reject this provision, in which case only
a court may be used to resolve any dispute or
claim. Rejection will not affect any other aspect of
the Agreement. To reject this Provision, you must
send us a notice within sixty (60) days after you
open your Account or we first provide you with
a right to reject this Provision. This notice must
include your name, address and Account Number
and be mailed to Genesis FS Card Services, Inc.,
Attn: Arbitration Provision, P.O. Box 4477, Beaverton, Oregon 97076. This is the only way you
can reject this Provision.
YOUR BILLING RIGHTS – KEEP THIS NOTICE
FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Think You Find A Mistake On
Your Statement
If you think there is an error on your Statement,
please write to us at: Genesis FS Card Services,
P.O. Box 4499, Beaverton, OR 97076-4499.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the
suspected error.
• Description of problem: If you think there
is an error on your bill, describe what you
believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on
your Statement.
• At least three (3) business days before an
automated payment is scheduled, if you
want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors, and you
may have to pay the amount in question.
What Will Happen After We Receive Your
Letter
When we receive your letter, we must do two
things:
1. Within 30 days of receiving your letter,
we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter,
we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has
been an error:
• We cannot try to collect the amount in
question, or report you as delinquent on
that amount.
• The charge in question may remain on
your Statement, and we may continue to
7

Destiny™ Mastercard® Cardholder Agreement

charge you interest on that amount.
• While you do not have to pay the amount
in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against
your Credit Limit.
After we finish our investigation, one of two
things will happen:
• If we made a mistake: You will not have to
pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake:
You will have to pay the amount in question, along with applicable interest and
fees. We will then send you a Statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your
bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also
reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been
settled between us. If we do not follow all of the
rules above, you do not have to pay the first $50
of the amount you question, even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services
that you have purchased with your credit card,
and you have tried in good faith to correct the
problem with the merchant, you may have the
right not to pay the remaining amount due on the
Purchase. To use this right, all of the following
must be true:
1. The Purchase must have been made in
your home state or within 100 miles of your
current mailing address, and the Purchase
price must have been more than $50. (Note:
Neither of these are necessary if your Purchase was based on an advertisement we
mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the
Purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still
dissatisfied with the Purchase, contact us in writing at Genesis FS Card Services, P.O. Box 4499,
Beaverton, OR 97076-4499. While we investigate,
the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay,
we may report you as delinquent.

M-133890

Dear Cardholder:
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in Lending Act;
• Includes certain disclosures required by the Federal Military Lending Act;
• Includes an Arbitration of Disputes Provision that will substantially affect your rights
unless you reject it; and
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records. Please feel free to
call us with any questions you may have. We look forward to serving you.
CARDHOLDER AGREEMENT
This Agreement contains the terms that govern the use of your Destiny Mastercard Account and outlines both your responsibilities and ours. Please read it in its entirety and keep it for your reference. In
addition, any written application, acceptance certificate or other request you signed or otherwise submitted for this Account (the “Application”), your Card and the Card Carrier that we send with your Card,
and your signature (including any electronic or digital signature) on any Application, sales slip or other
evidence of indebtedness on your Account, are hereby incorporated into and made a part of this Agreement. This Agreement begins on the earlier of (i) the date you sign or otherwise submit an Application
that is approved by us, or (ii) the first date that we extend credit to you on your Account, as evidenced by
a signed sales slip or memorandum, a Cash Advance transaction, or otherwise.
Definitions. To simplify this Agreement for you, the definitions listed below will apply throughout, both
in this Agreement and in your monthly Statements. In addition, the words you, your, and yours refer to
the Cardholder(s) who holds the Card and is responsible for the Account, each of whom is individually
and jointly obligated under this Agreement. The words we, us, and our refer to First Electronic Bank.
Account: The credit card account for which you were issued a Card imprinted with your Account number
and that is subject to all of the terms and conditions of this Agreement.
ATM: Automated Teller Machine.
Billing Cycle: The time interval covered by a monthly Statement. Each Billing Cycle is approximately 30
days in length; however, the specific period of time is described on each monthly Statement. Your Account will have a Billing Cycle even if a Statement is not required.
Card: Any Destiny Mastercard issued by us that you may use to obtain a Cash Advance, make Purchases, or lease goods or services on credit. Use of your Account number to obtain credit will be considered
a use of the Card.
Card Carrier: The carrier that contains your Card.
Cardholder: The person to whom a Card is issued, or who has agreed to pay obligations arising from a
Card issued to another person.
Cash Advance: Credit extended to you in the form of a cash loan through any financial institution honoring the Card either presented directly or through any other credit instrument, check, device, overdraft
coverage plan or ATM that we make available to you or that you use. All cash equivalent transactions
will be treated as Cash Advances and will be billed to the Cash Advance segment of your Account.
Transactions that we view as “cash equivalent transactions” include without limitation using your Card
to purchase wire transfer money orders, bets, lottery tickets, casino gaming chips, and other similar
products and services.
Closing Date: The date of the last day of a Billing Cycle.
Credit Limit: The maximum amount of credit available to you on your Account. Your Credit Limit will be
disclosed on your Card Carrier and your monthly Statements.
Purchase: Any extension of credit to your Account for the purpose of purchasing or leasing goods or
services from participating merchants.
Statement: A monthly document we provide to you showing Account information including, among other things, Purchase and Cash Advance transactions, credits and debits, payments, fees, and interest
charges made to your Account during a Billing Cycle.
Purchases and Cash Advances. You may use your Card to purchase or lease goods or services from
participating merchants. You may also use your Card to obtain Cash Advances from your Account at an
ATM, or by presenting it to any institution that accepts the Card for that purpose. There are dollar limitations on individual Cash Advance transactions, and we may set a Cash Advance Limit for your Account.
Please contact us for information about the Cash Advance limitations that apply to your Account. In
addition, we may limit your Account to only one Cash Advance transaction per day.
You promise to pay us and are liable for all amounts resulting from the authorized use of your Card or
Account, plus any applicable interest charges and other applicable charges or fees, payable in U.S.

The Card Issuer:
First Electronic Bank
8

1

dollars. This includes amounts where you did
not sign a purchase slip or other documents for
the transaction. If you use your Account number
without presenting your actual Card, such as for
mail, telephone, or internet purchases, this will be
treated the same way as if you presented your
Card. Your promise to pay us will apply to your
estate if you die.
We may limit and restrict the use of the Account/
Card at our discretion. Such limitations and restrictions include, but are not limited to, gambling
transactions, which include, but are not limited to,
internet-related lottery tickets, casino gambling
chips, off-track betting and wagers at racetracks.
You remain responsible for use of your Account/
Card in any such transactions.
The Card may only be used for valid and lawful
purposes. If you use, or you authorize someone
else to use, the Card or Account for an unlawful
or impermissible purpose, you will be responsible
for such use and may be required to reimburse us
or Mastercard for any amounts or expenses we or
they incur as a result of such use.
The Card is and remains our property, and you
will surrender it to us at any time upon request.
Your Credit Limit. You may not use your Account
in any way that would cause you to go over your
Credit Limit. We may refuse to authorize or accept any transaction on your Account that would
cause you to exceed your Credit Limit, even if you
have authorized us to charge you an Overlimit Fee
for doing so. We may temporarily agree to allow
you to exceed your Credit Limit; however, in that
case you must repay the excess amount according to the terms of this Agreement. Any transactions honored in excess of your Credit Limit will
not result in an increase of your Credit Limit. We
may at any time and without prior notice to you
increase or decrease your Credit Limit, limit the
Credit Limit for Cash Advances or take away your
ability to obtain Cash Advances.
MAKING PAYMENTS
Monthly Statements. We will send a Statement at
the end of each monthly Billing Cycle if there is a
debit or credit balance on your account of $1 or
more, a balance on which an interest charge has
been imposed, or as otherwise required by applicable law. You agree to pay us, or any party to
whom we may transfer and assign your Account
or the amounts owing under your Account, in U.S.
dollars according to all terms and conditions of this
Agreement. Payments made by a check, money
order or other negotiable instrument must be in a
form acceptable to us and drawn on a U.S. financial institution.
Monthly Minimum Payment. The Monthly Minimum Payment is 7% of your New Balance or $40,
whichever is greater, rounded to nearest dollar. If
you elect not to pay your New Balance in full, you
must pay at least the Monthly Minimum Payment by
the Payment Due Date shown on your Statement,
which is at least 25 days after the Closing Date of
the Billing Cycle. Your Monthly Minimum Payment
also will include any past due amounts. If your New
Balance is less than or equal to your Monthly Minimum Payment, then your Monthly Minimum Payment will be equal to your New Balance.
Payments should be mailed with the payment coupon and in the envelope provided and following

the other instructions on the Statement to Genesis
FS Card Services, PO Box 23030, Columbus, GA
31902-3030. Any payment received in that form
and at that address on or before 5:00 P.M., Eastern
Time, on a normal banking day will be credited to
your Account that day. If your payment is received
in that form and at that address after 5:00 P.M.,
Eastern Time, on a normal banking day, or any time
on a non-banking day, we will credit it to your Account the next banking day. However, if your Payment Due Date occurs on a non-banking day, any
payment received the next day which conforms to
the above requirements will not be treated as late.
Please allow at least seven (7) business days for
postal delivery. Payments received by us at any
other location or in any other form may not be credited as of the day we receive them.
If we accept a payment at a place other than the
address in the immediately preceding paragraph,
we may delay the crediting of the payment for up to
five (5) days. This may cause you to incur Late Fees
and additional interest charges, and may result in
your Account being declared in default.
We do not accept cash payments through the mail.
You may not make payments with funds from your
Account or any other credit account issued by us.
When you provide a check as payment, you authorize us either to use information from your check
to make a one-time electronic fund transfer from
your account or to process the payment as a check
transaction. When we use information from your
check to make an electronic fund transfer, funds
may be withdrawn from your account as soon as
the same day we receive your payment and you
will not receive your check back from your financial
institution.
At any time, you may pay part or all of the full
amount you owe without incurring any additional
charge for prepayment. The amount of any payment that exceeds your total New Balance will be
applied as a credit to your Account, and any remaining credit balance will be refunded as required
by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds. Your
available credit on your Credit Limit may not reflect
your payments for up to 14 days.
Application of Payments. For each Billing Cycle, payments up to the amount of your Monthly
Minimum Payment will be allocated in any way we
determine, including to balances with lower Annual Percentage Rates before balances with higher
Annual Percentage Rates. We will generally apply
payments up to the amount of your Monthly Minimum Payment in a manner most favorable or convenient for us.
For each Billing Cycle, to the extent your payments
exceed your Monthly Minimum Payment, we will
apply these excess amounts in the order required
by applicable law.
HOW INTEREST CHARGES ARE
DETERMINED
Your interest charge for any Billing Cycle will
include the following components, the total of
which constitutes your total interest charge for
the Billing Cycle:
1. A Cash Advance Transaction Fee imposed
on each Cash Advance transaction posted
during a Billing Cycle, in an amount equal
2

Balance Subject to Interest Charges
Average Daily Balance of Purchases (including new Purchases): To get the Average Daily
Balance of Purchases, we take the beginning Purchase balance of your Account each day, including unpaid fees, interest charges on Purchases
and Foreign Currency Conversion Fees on Purchases, add any new Purchases and new fees as
of the date of transaction, and subtract the applicable portion of any payments and credits as
of the transaction date. On the first day of a Billing Cycle, we also add any unpaid Late Fees and
Overlimit Fees. This gives us the daily balance for
Purchases. Then we add all these daily balances
for the Billing Cycle together and divide the total
by the number of days in the Billing Cycle. This
gives us the Average Daily Balance of Purchases.
Average Daily Balance of Cash Advances (including new Cash Advances): To get the Average Daily Balance of Cash Advances, we take the
beginning Cash Advance balance of your Account
each day, including unpaid interest charges on
Cash Advances and Foreign Currency Conversion Fees on Cash Advances, add any new Cash
Advances as of the date of transaction, add the
Cash Advance Transaction Fee on any Cash Advances as of the transaction date of each Cash
Advance, and subtract the applicable portion of
any payments and credits as of the transaction
date. This gives us the daily balance for Cash Advances. Then we add all these daily balances for
the Billing Cycle together and divide the total by
the number of days in the Billing Cycle. This gives
us the Average Daily Balance of Cash Advances.
Computing the Purchase and Cash Advance
Balance Monthly Periodic Rates and Corresponding Annual Percentage Rates (APR)
Monthly Periodic Rates: The Monthly Periodic Rate is calculated by dividing the APR by 12.
The Purchase APR is 24.9% and the standard
Monthly Periodic Rate for Purchases is 2.075%.
The Cash Advance APR is 29.9% and the Monthly
Periodic Rate for Cash Advances is 2.492%.
OTHER FEES
In addition to interest charges, a variety of fees
may be applied to your Account, as set forth below.
Annual Fee. We will charge an initial Annual Fee
of $59 to your Account on or about the date your
Account is opened and then a renewal Annual
Fee of $59 on or about each anniversary of that
date. The initial Annual Fee is nonrefundable; the
renewal Annual Fee is also nonrefundable unless
you notify us to cancel your Account within 30
days from the mailing date of the billing Statement or other communication containing the renewal Annual Fee notice.
Late Fee. If we do not receive your Monthly Minimum Payment by the Closing Date of the Billing
Cycle in which the Payment Due Date occurs and
the amount past due on your Account is more than
$9.99, we will charge a Late Fee to your Account.
The Late Fee is $29 if you were not charged a
Late Fee during any of the prior six Billing Cycles.
Otherwise, the Late Fee is $40. The Late Fee will
never exceed the amount of your most recently
required Monthly Minimum Payment.
Minimum Interest Charge Fee. If the periodic
interest charge amounts computed in the How

to the greater of $5 or 5% of the amount
of each Cash Advance, not to exceed $100.
Any unpaid Cash Advance Transaction Fee
will be added to the calculation of your Average Daily Balance of Cash Advances.
2. Periodic interest charge computed by applying the applicable Monthly Periodic
Rate or Rates, determined as provided below under Computing the Purchase and
Cash Advance Balance Monthly Periodic
Rates and Corresponding Annual Percentage Rates (APR) to:
a. your Average Daily Balance of Cash Advances (including new Cash Advances);
and
b. your Average Daily Balance of Purchases
(including new Purchases).
However, if the total of the amounts so
computed is an amount less than $1, then
a Minimum Interest Charge Fee of $1 will be
imposed instead of such smaller amounts.
3. A Foreign Currency Conversion Fee in an
amount equal to 1% of the converted U.S.
dollar amount of each transaction, including Cash Advances and Purchases, that
is effected in any currency other than U.S.
dollars.
When Interest Charges Begin to Accrue. Interest charges on Purchases will be imposed at
the applicable Monthly Periodic Rate from the
date each Purchase is made, and will continue to
accrue on unpaid balances as long as they remain unpaid. However, we do not assess interest
charges in the following circumstances:
1. If you paid the New Balance at the beginning of your previous Billing Cycle by the
Payment Due Date during the previous Billing Cycle, or if that New Balance was $0 or
a credit balance, then:
a. if you pay the New Balance on your current Statement in full by the Payment Due
Date in your current Billing Cycle, we will
not assess interest charges on Purchases during your current Billing Cycle; and
b. if you make a payment that is less than
the New Balance by the Payment Due
Date in your current Billing Cycle, we will
credit that payment as of the first day in
your current Billing Cycle.
2. If you had a New Balance at the beginning
of your previous Billing Cycle and you did
not pay that New Balance by the Payment
Due Date during that previous Billing Cycle,
then we will not assess interest charges on
any Purchases during the current Billing
Cycle if you pay the New Balance at the beginning of your current Billing Cycle by the
Payment Due Date in your current Billing
Cycle.
Periodic interest charges on Cash Advances will
be imposed at the applicable Monthly Periodic
Rate from the date each Cash Advance is made
and will continue to accrue on unpaid balances
as long as they remain unpaid. There is no grace
period on Cash Advances and there is no period
within which to pay to avoid interest charges on
Cash Advances.
Calculating the Purchase and Cash Advance
3

Interest Charges Are Determined section are
an amount less than $1, then a Minimum Interest Charge Fee of $1 will be charged instead of
such smaller amounts and will be treated as a fee
on your billing statement and added to your Purchases at our discretion.
Returned Payment Fee. If any payment on your
Account is returned to us unpaid for any reason,
we will charge a Returned Payment Fee to your
Account. The Returned Payment Fee is $29 if you
were not charged a Returned Payment Fee during
any of the prior six Billing Cycles. Otherwise, the
Returned Payment Fee is $40. The Returned Payment Fee will never exceed the amount of your
most recently required Monthly Minimum Payment.
Overlimit Fee. If you elected to have overlimit
coverage, we may charge an Overlimit Fee when
a transaction causes you to go over or remain
over your Credit Limit during any Billing Cycle.
We may also charge you two additional Overlimit Fees if your New Balance remains over your
Credit Limit as of the Payment Due Date in future Billing Cycles. We will only charge you one
Overlimit Fee per Billing Cycle, even if you go over
your Credit Limit multiple times in the same Billing
Cycle. The Overlimit Fee is $29 if you were not
charged an Overlimit Fee during any of the prior
six Billing Cycles. Otherwise, the Overlimit Fee
is $40. The Overlimit Fee will never exceed the
maximum amount you are over your Credit Limit
during the Billing Cycle.
Documentation Fee. You may request a copy
of a Statement previously sent to you for a Documentation Fee of $3 per Statement, which will
be applied to your Account. Copies of sales tickets or other items posted to your Account may
be obtained for a Documentation Fee of $10 per
sales ticket or other item, which will be applied to
your Account. Notwithstanding the foregoing, we
will not impose any fee in connection with a good
faith assertion of a billing error or other exercise
of your Billing Rights (see below under “Your Billing Rights - Keep This Notice for Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for
Covered Borrowers. The provisions of this section apply to Covered Borrowers. If you would
like more information about whether you are a
Covered Borrower, you may contact us at 1-800583-5698.
Statement of MAPR. Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not exceed an
Annual Percentage Rate of 36%. This rate must
include, as applicable to the credit transaction or
account: (1) the costs associated with credit insurance premiums; (2) fees for ancillary products
sold in connection with the credit transaction;
(3) any application fee charged (other than certain application fees for specified credit transactions or accounts); and (4) any participation fee
charged (other than certain participation fees for
a credit card account).
Oral Disclosures. In order to hear important
disclosures and payment information about this
Agreement, you may call 1-800-290-6421.

Applicability of Arbitration of Disputes Provision. The Arbitration of Disputes Provision set
forth in this Agreement does not apply to Covered
Borrowers.
LOST CARDS AND UNAUTHORIZED USE
You will take reasonable steps to prevent the unauthorized use of your Card and Account. If your
Card is lost or stolen or if someone else might be
using it without your permission, you must tell us
at once. You may tell us by calling the telephone
number on the back of your Card or on your
Statement or by writing us at the address on your
Statement. You will not be responsible for the
charges made to your Account that are found by
us to be unauthorized. If we reimburse your Account for unauthorized charges made using your
Card or Account, you will help us investigate, pursue, and get reimbursement from the wrongdoer.
Your help includes giving us documents that we
ask for and are acceptable to us.
COMMUNICATIONS
Telephone Monitoring and Recording; Communications. You consent and agree that, except as restricted by applicable law, we may monitor and/or record telephone calls regarding your
Account, suppress caller identification services,
use prerecorded messages, and use an automated telephone dialing and announcing system.
You expressly consent that we and our agents,
any servicer, or any subsequent owner of your
Account may (i) contact you at any cellular telephone number that you provided as part of your
application, at any number that you later provide
(including, without limitation, after your Account
is in a default status), or at any other number that
is identified as related to you, including by text
message, and (ii) use automated telephone dialing systems to initiate such contacts and/or leave
recorded messages.
If you provide us at any time with an email contact for your Account, you agree we may use that
email address to contact you about your Account
and may send you information about products
and services related to your Account.
We or our representatives may contact you from
time to time regarding the Account, or to ask for
additional information about you or your experience with us. You agree that such contacts are
not unsolicited and may include contacts at your
home or place of employment, during weekdays,
weekends or holidays, on your mobile telephone,
voicemail or answering machine, or by email, fax,
recorded message, text message or personal
visit.
How to Revoke Consent for Future Communications: If you want to revoke your consent to
future communications as described in the previous paragraph, you must send us a written notice that includes: (i) your name, mailing address,
and Account number(s); (ii) the specific telephone
number(s), email address(es) and/or mailing address(es) at which you no longer wish us to contact you, and (iii) the types of communications
(telephone, text, email, and/or mail) for which you
are revoking consent. You must send this written
notice to: Genesis FS Card Services, P.O. Box
4477, Beaverton, OR 97076. You understand and
agree that it may take up to three business days
after receipt of your written notice to process
your request, and that you consent to continued
4

Change of Terms. Subject to the limitations of
applicable law, we may, at any time, change
or remove any of the terms and conditions of,
or add new terms or conditions to, this Agreement. If required by applicable law, we will
mail written notice of such a change to you
in the manner required by such law. As of the
effective date, the changed or new terms will
apply to new Purchases and Cash Advances
and also to the outstanding balance of your
Account, subject to the limitations of applicable law.
Delay in Enforcement. We can delay enforcing
our rights under this Agreement without losing
them.
OTHER PROVISIONS
Ownership and Use of Your Card. As the Cardholder, you are liable for all credit obtained under
your Account. If you authorize another person to
use your Card, you are liable for any credit obtained on your Account for as long as that person
holds the Card. In addition, you will remain liable
until you recover possession of the Card. Misuse
of your Card by an authorized person will not be
considered unauthorized use. See “Lost Cards
and Unauthorized Use” above. Upon demand,
you must immediately return any Card we supply
to you or destroy the Card by cutting it in half.
Transactions. You will retain for Statement verification your copy of each Purchase slip, Cash
Advance or other transaction to your Account.
Transfer of Your Account. You may not transfer your Account to any other person. We may
assign your Account or amounts owing under
your Account to any other person at any time
and the assignee will take our place under the
Agreement with respect to all agreements and
interests transferred. You must pay the assignee
and otherwise perform your obligations under the
assigned agreements and interests.
Closing or Suspending Your Account. We may
close or suspend your Account or your ability to
obtain credit on your Account, or both, at any
time, for any reason permitted by law and with or
without advance notice.
You may close your Account at any time by contacting us. The closure of Account will not become effective until you have returned to us all of
the Cards we have given you. If you have a joint
Account and want to remove one of the names
from the Account, we must receive a written request signed by both of the Cardholders on the
Account and all Cards must be returned upon
request. No party is released from the obligation
for the balance owing on a joint Account, unless
we agree to the arrangements in writing. You may
have to reapply for a new Card for an individual
Account when you request a change from a joint
Account to an individual Account.
If your Account is closed or suspended for any
reason, you must stop using your Card. You
must also cancel all billing arrangements to the
Account. We will not do this for you. If we close
or permanently suspend your Account, you must
also return all Cards to us. You must still pay us
all amounts you owe on the Account, even if they
are charged after your Account is closed or suspended.
Additional Benefits and Services. From time

communications during this period of time.
OUR RIGHTS AND HOW THEY AFFECT YOU
Merchant Refunds. If a merchant agrees to give
you a refund for goods or services purchased
with your Card or Account, you will accept a credit on your Account instead of a cash refund. We
do not control when a merchant sends us your
refund and we will have a reasonable amount of
time after we receive your refund to process it.
No Waiver of Rights; Disputed Amounts. We
can accept late or partial payments without
losing any of our rights under this Agreement.
You agree not to send us partial payments
marked “paid in full,” “without recourse,” or
similar language. If you send such a payment,
we may accept it without losing any of our
rights under this Agreement. All written communications concerning disputed amounts,
including any check or other payment instrument that indicated that the payment constitutes “payment in full” of the amount owed
or that is tendered with other conditions or
limitations or as full satisfaction of a disputed
amount, must be mailed or delivered to Genesis FS Card Services, P.O. Box 4499, Beaverton, Oregon 97076.
Credit Reports and Information. You authorize
us to make or have made any credit, employment,
or other investigative inquiries we deem appropriate to extend you credit or collect amounts
owed to us on your Account. We (including any
assignee of the Account or amounts owing under
the Account) may also obtain information about
you from credit reporting agencies or others at
any time and use it for the purposes of monitoring
your credit performance, managing your Account
and considering you for new offers and programs.
Notice of Inaccurate Information. If you believe
that we have information about you that is inaccurate or that we have reported or may report to
a credit reporting agency information about you
that is inaccurate, please notify us of the specific
information that you believe is inaccurate by writing to us at Genesis FS Card Services, P.O. Box
4499, Beaverton, OR 97076.
Default and Collection. Unless prohibited by applicable law, your Account is considered to be in
default if (1) you fail to make the required Monthly Minimum Payment on or before the Payment
Due Date, including if your payment is returned or
cannot be processed and you do not correct that
failure within 31 days, (2) you try to exceed or do
exceed your Credit Limit without permission and
do not bring your Account back under your Credit
Limit within 31 days, (3) you become subject to
bankruptcy or insolvency proceedings, (4) you
become subject to attachment or garnishment
proceedings, (5) you give us any false information
or signature, (6) you die, or (7) you fail to comply
with any portion of this Agreement. Our accepting
a late or partial payment does not waive default.
Default on this Account will constitute default on
all accounts you hold with us. Subject to any notice of default and right to cure or other restrictions of applicable law, if you are in default, we
may declare the entire balance due immediately.
You agree to pay our reasonable costs and attorneys’ fees and expenses related to the collection
of your Account, and retrieving your Card, to the
extent permitted by applicable laws.
5

